IN THE SUPREME COURT OF THE STATE OF OREGON
STATE OF OREGON,
Plaintiff-Adverse Party,

v.
JOHN HENRY TODD,
Defendant-Relator.
Klamath County Circuit Court
15CR60238

S068122
APPELLATE JUDGMENT
Upon consideration by the court.
The petition for writ of mandamus is denied.

January 21, 2021
DATE

Is/ Martha L. Walters
Chief Justice, Supreme Court

DESIGNATION OF PREVAILING PARTY AND AWARD OF COSTS
[ X ] No costs allowed.
Prevailing party: Adverse Party
Supreme Court
(seal)

Appellate Judgment
Effective Date: February 25, 2021

els

APPENDIX B

APPELLATE JUDGMENT
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

